Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


For Release on Delivery
Expected at
10:00 a.m. EDT
                          FAA’s Certification
Wednesday
September 17, 2008
                          of the Eclipse EA-500
                          Very Light Jet
CC-2008-120




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today regarding the Eclipse EA-500 very
light jet. Our testimony today is based on the initial results of our investigation of the
Federal Aviation Administration’s (FAA) process used to certify the EA-500. It is
important to emphasize that we did not assess the safety of the aircraft itself. Further,
our investigation was limited to the Eclipse certification only; we did not examine
FAA’s process for certifying and overseeing the aircraft manufacturing industry in
general.

As this Subcommittee is aware, safety is a shared responsibility among FAA, aircraft
manufacturers, airlines, and airports. Together, these form a series of overlapping
controls to keep the system safe. The United States has achieved an impressive safety
record—a remarkable accomplishment given all the changes occurring within the
industry.

Over the past several years, multiple manufacturers have been designing a new class
of aircraft called very light jets or VLJs. VLJs are small aircraft with advanced
technologies that cost less than other
business jets. Aviation forecasters predict
that thousands of VLJs will enter the
National Airspace System over the next
2 decades.

Experts also predict that VLJs will be
targeted towards private general aviation
users as well as on-demand, point-to-point
air taxi operators. In 2006, FAA certified Eclipse EA-500
the first VLJs—one of which was the Source: Aviation Business Index
Eclipse EA-500, a six-seat jet aircraft, which featured advanced avionics and better
fuel efficiency. Eclipse Aviation was formed in 1998 with the intent of introducing
new technology to the aviation industry.

When a manufacturer embarks on building a new aircraft, it must receive two separate
approvals from FAA before the aircraft can be mass produced: (1) a design
certification (approving the design of the aircraft) and (2) a production certification
(approving the manufacturer to begin mass production of the aircraft). FAA issued
the design certificate for the Eclipse EA-500 on September 30, 2006, and the
production certificate on April 26, 2007. It is important to note, however, that even
after a manufacturer has received certification approval, FAA is responsible for
ensuring that each aircraft manufactured under its design certificate meets the
approved design and is in condition for safe operation.




                                                                                        1
While the industry was generally excited about the introduction of the technologically
advanced jet, some FAA employees were concerned that it was “pushed through” the
certification process too quickly. In March 2007, our office received a complaint
concerning the certification process for the Eclipse EA-500. The complainant alleged
that senior FAA officials prevented FAA inspectors from properly inspecting the
production of the Eclipse jet by, among other things, reassigning the inspectors who
had identified numerous deficiencies with the aircraft’s production and prohibiting the
new inspection team from looking under the aircraft floorboards during final
inspection.

During our ongoing investigation of the allegations, other FAA employees raised
additional concerns that senior officials in FAA’s Aircraft Certification Service short-
cut both the design and production certification processes. The complaints alleged
that those officials may have compromised safety by (1) certifying Eclipse’s design
despite knowledge of Eclipse’s failure to meet certification requirements for avionics
software, stall warnings, flaps, and cockpit screens and (2) rushing approvals required
for Eclipse to mass produce its jet.

Mr. Chairman, a significant issue overshadowing FAA’s certification of the EA-500
is the inherent risks associated with a new aircraft utilizing new technology, produced
by a new manufacturer, and marketed with a new business model for its use. Because
of these factors, we would have expected FAA to exercise heightened scrutiny in
certifying the aircraft. In addition, because the EA-500 has advanced avionics and
turbine engine technology typical of large transport aircraft combined with the light
weight of smaller, private aircraft, it did not easily fit into FAA’s existing certification
framework.

FAA chose to certify the EA-500 and other VLJs using certification requirements for
general aviation aircraft rather than the more stringent certification requirements for
larger transport aircraft. However, in a post-design certification, “lessons-learned”
internal review of the Eclipse project, FAA managers acknowledged that the general
aviation certification requirements were “inadequate to address the advanced concepts
introduced on this aircraft.” We understand that FAA is developing a Notice of
Proposed Rulemaking (NPRM) to clarify certification requirements for VLJs. Given
the issues surrounding the EA-500 certification, FAA should expedite the NPRM to
allay future concerns with this expanding industry segment.

In certifying the EA-500, FAA asserts that it met all pertinent certification
regulations. However, our initial investigation results show a combination of FAA
actions and inactions indicating that the Agency expedited the certification processes
for the EA-500 to meet a September 2006 deadline in the Aviation Safety line of
business fiscal year (FY) 2006 Performance Plan.




                                                                                          2
Specifically, FAA allowed Eclipse to use alternate means of compliance to meet
design certification requirements despite unresolved design problems identified
during testing. Those alternate actions may have contributed to problems that are still
reported by Eclipse users today. FAA also awarded Eclipse a production certificate
even though there were known deficiencies in its supplier and quality control systems.
In addition, the company experienced significant problems replicating its approved
design. We are also concerned that the priority designation of the EA-500 may have
affected FAA’s relationship with and oversight of Eclipse as it quickly moved this
new aircraft through the certification process.

My remarks today will focus on the three following points.
FAA Allowed Eclipse To Use Alternate Means of Compliance To Meet Design
Certification Requirements Despite Unresolved Design Problems—Users Continued
To Report Similar Problems After Certification
During the design certification of the EA-500, Eclipse applied and FAA approved
alternate means of compliance for the aircraft’s avionics software and airspeed and
altitude indicator (pitot-static system). More importantly, recent events reported by
Eclipse aircraft users indicate that other problems identified during the design
certification continued after the design was approved, including erroneous stall
warnings, cockpit display failures, and flap movement problems. Further, users are
still reporting that the aircraft is experiencing a high rate of tire failure.

In addition, our analysis of two safety problem reporting systems disclosed numerous
issues similar to those encountered during the design certification process; many of
these problems have been reported with the EA-500 over the last year. For example,
Service Difficulty Reports (SDRs) 1 disclosed that between June 2007 and July 2008,
the largest user of the EA-500 submitted 84 SDRs for 28 Eclipse aircraft. While
SDRs are to be expected with any new aircraft, the fact that many of those reported
for the EA-500 appear to relate back to design issues is troubling.

A recent incident involving the EA-500 has heightened attention regarding the
aircraft’s design certification. On June 5, 2008, an EA-500 on approach to Chicago
Midway airport experienced a throttle failure that resulted in an uncontrollable
maximum power thrust from its engines. After consulting the emergency procedures,
the pilots shut down one of the engines; however, this action caused the second
engine to roll back to idle power and be unresponsive to the throttle. The pilots
declared an emergency and were able to land the plane without injury to the two pilots
or two passengers.

During its investigation into the incident, the National Transportation Safety Board
(NTSB) expressed concern about the reliability of an assembly that failed after
1
    SDRs are submitted by operators when a failure or defect occurs in the aircraft structure or is detected if that failure or
    defect has endangered or may endanger the safe operation of an aircraft.


                                                                                                                             3
accumulating only 238 hours and 192 cycles. The NTSB also raised concerns that the
problem could be due to flaws in the design logic for the software that controls the
engines and issued two recommendations to FAA requiring (1) immediate inspection
of all EA-500 engine throttles and (2) an emergency procedure to address dual engine
control failure.

On June 12, 2008, FAA issued an Airworthiness Directive (AD) 2 that requires
operators to examine throttle controls for identified faults and replace assemblies as
necessary. Since awarding the design certificate to Eclipse, FAA has issued a total of
six ADs for various components of the EA-500.

As a result of this incident, FAA engineers re-examined the software that controls the
engines and discovered software logic flaws that should have been resolved before
design certification. At the end of June 2008, the local FAA certification manager
sent a memorandum to the manufacturer requiring Eclipse to develop an approach to
bring the aircraft design into certification compliance for that system. Eclipse is
currently addressing FAA’s requirement.
FAA Awarded Eclipse a Production Certificate Despite Known Deficiencies in the
Company’s Supplier and Quality Control Systems
FAA granted Eclipse a production certificate on April 26, 2007. A production
certificate is FAA’s approval that the manufacturer has demonstrated the ability to
manufacture aircraft using an FAA-approved design without further FAA
airworthiness inspections. To obtain a production certificate, however, manufacturers
are required to undergo FAA quality control reviews and an FAA Production
Certification Board review to determine if they have complied with all regulations.
FAA’s quality control reviews, which began in July 2006, identified
numerous deficiencies, with 42 serious deficiencies (including 4 involving software)
identified as late as February 2007.

The Production Certification Board completed its review on April 26, 2007—the
same day the production certification was granted—and identified two serious,
overarching deficiency issues. First, the Board found that Eclipse had not completed
the requirement to show that it had established and could maintain a quality control
system. Second, the Board found significant issues associated with Eclipse’s controls
over its suppliers. Despite the impact that these issues could have on the production
process, FAA awarded the production certification to Eclipse with 13 specific
production problems.

Additionally, before it received its production certification, Eclipse encountered
numerous problems replicating its own aircraft design on the factory floor. A
significant concern was that manufacturing deficiencies were not identified by Eclipse
2
    FAA issues an Airworthiness Directive when it finds that an unsafe condition exists and that the condition is likely to
    exist in other products of the same design.


                                                                                                                         4
inspectors designated to certify aircraft airworthiness. For example, in one instance,
Eclipse presented an aircraft to FAA for airworthiness certification with
approximately 20 airworthiness deficiencies, even though an FAA-approved Eclipse
inspector had previously inspected the aircraft for airworthiness and found no non-
conformities.
FAA’s Desire To Promote the Use of VLJs May Have Contributed to Its Decision To
Accelerate the Eclipse Certification Process
A significant concern surrounding this issue, Mr. Chairman, is that FAA designated
the Eclipse EA-500 VLJ as a priority project for certification in its FY 2006
Performance Plan for the Aviation Safety line of business. In this plan, FAA stated
that it would certify the aircraft design by September 2006. Although FAA met this
deadline, the specific designation as a priority certification may have resulted in
reduced vigilance on the Agency’s part during the aircraft’s design and production
certification processes. We identified four other FAA actions that raise concern
regarding the Agency’s safety oversight focus in this matter:

    • FAA granted Eclipse Organizational Designated Airworthiness
      Representative (ODAR) authority to certify its own aircraft for airworthiness
      4 years before Eclipse obtained a design certificate. This authority allowed
      Eclipse to approve and document parts as they were manufactured, with Eclipse
      inspectors overseeing manufacturing processes on FAA’s behalf. However, it is
      unclear to us why FAA determined that Eclipse met the qualifications to perform
      its own inspections since Eclipse was a new manufacturer with no history of
      manufacturing an aircraft or shepherding a design through the design certification
      process. Further, FAA inspectors found numerous deficiencies on planes that had
      been accepted and approved by Eclipse inspectors.

    • FAA granted single-pilot operation certification for the EA-500 despite FAA
      Flight Standardization Board 3 concerns. Eclipse originally envisioned that the
      EA-500 would be marketed to individual owners. However, because of the many
      in-flight problems reported by pilots, the Board determined that the aircraft
      required a two-pilot crew. On December 15, 2006, Eclipse initiated a customer
      service complaint to protest the Board’s recommendation. FAA subsequently
      rescinded the two-pilot recommendation on January 29, 2007.

    • FAA replaced the inspection team that had identified deficiencies at Eclipse
      and restricted the new team’s inspection activities. After FAA removed the
      original inspection team, it assigned the former FAA Headquarters Deputy
      Director of Aircraft Certification responsibility for the Eclipse certification
      project. This individual assembled a new team of inspectors and developed a

3
    The FAA Flight Standardization Board is a group of FAA pilots who test-fly the new aircraft to determine readiness for
    users.


                                                                                                                        5
   policy that limited the inspectors’ ability to fully inspect the aircraft for
   airworthiness.
 • FAA allowed one of its engineers formerly assigned to the Eclipse project to
   take a high-level position at Eclipse without a “cooling-off” period. While at
   FAA, the engineer evaluated and approved Eclipse’s proposed methods for
   meeting FAA’s certification requirements for the design phase of the aircraft.
   When he left FAA, he immediately began working at Eclipse as Director of
   Certification, serving as the focal point between Eclipse and FAA concerning the
   company’s compliance with FAA’s certification requirements.

Mr. Chairman, the results of our investigation and those of the NTSB, as well as
concerns expressed by EA-500 users and FAA employees, clearly underscore the
need for FAA to take immediate actions to ensure that existing problems reported by
Eclipse users are quickly resolved. At our recommendation, FAA established a
Special Certification Review Team last month to verify that Eclipse corrects design
and production problems associated with the EA-500 and determine that the aircraft is
in condition for safe operations. The team concluded the certification of the EA-500
was appropriate because it met FAA requirements for the focus areas reviewed. We
received a copy of the team’s report on Saturday and are reviewing its findings and
recommendations.

However, based on our interim results, we are recommending that FAA take several
immediate actions. Those include expediting its NPRM to clarify certification
requirements for the expanding VLJ industry segment; refraining from granting new,
inexperienced manufacturers authority to certify the airworthiness of their own
aircraft prior to design certification; and verifying that the certification process for
single-pilot operations of the EA-500 was appropriate.

I would now like to discuss these issues in further detail.




                                                                                      6
FAA Allowed Eclipse To Use Alternate Means of Compliance To
Meet Design Certification Requirements Despite Unresolved
Design Problems—Users Continued To Report Similar Problems
After Certification
We found that in certifying the EA-500 design, Eclipse used and FAA approved an
alternate means of compliance. While FAA regulations permit alternate means of
compliance, we are particularly concerned that FAA applied a less stringent standard
to the avionics software design, which the aircraft heavily relies upon for operation.
Users have since reported problems directly related to the EA-500 software, such as
cockpit display failures. In addition, other problems with the aircraft design have
surfaced, such as airspeed and altitude indicator (pitot-static system) discrepancies,
erroneous stall warnings, and tire failures. The timeline below shows key dates
leading up to the design certification for the EA-500.

                                       Figure 1. Eclipse Design Certification
                                             1st QA audit finds                                     2nd QA audit finds
                 Former FAA                                         Provisional
Eclipse                                      unauthorized tooling                   Eclipse         loose wire
                 employee                                           design                                             FAA issues
applies for                      Eclipse     change and failure                     applies for     bundles and
                 becomes                                            certification                                      EA-500 design
design                                       to do required first                   production      crossed brake
                 Eclipse Dir. of receives                           granted\b                                          certification
certification                                article inspection\a                   certification   fluid lines
                 Certification   ODAR
                                                         21         27              15                21             30
        Jul        Oct              Sep            Jul                      Sep

       2001                     2002            2006

   \a
        First article inspection: A required inspection of a newly produced or revised part, assembly, or product.
  \b
        Provisional design certification: An approval of the aircraft design that allows for limited flight and operational
        testing of the aircraft.
        Source: OIG analysis of FAA data


The Eclipse EA-500 relies extensively on software to operate. The Eclipse EA-500
is a technologically advanced aircraft with an integrated avionics system that controls
several of the aircraft’s crucial systems and displays, sensor data processing, and
subsystem monitoring. For example, this system enables the flight crew to control
landing gear, cabin pressurization, lighting, trim, and electrical systems.

This integrated system also handles key data that flows to the aircraft’s flight
management system, such as global positioning (GPS), altitude, direction, and
velocity data. The EA-500’s avionics system is solely computer-based; it does not
have stand-by instruments to monitor flight-critical information (other VLJs like the
Cessna Mustang have back-up [analogue] systems; see figure 2 below).




                                                                                                                                       7
            Figure 2. Comparison of Cessna and Eclipse Cockpit Systems




Cessna Mustang cockpit has analogue instrumentation   EA-500 cockpit relies exclusively on a computer-based
(gauges) in addition to a computer screen display     system


 During the EA-500 design certification, Eclipse applied and FAA approved alternate
 means of compliance for the aircraft’s avionics software. Given the EA-500’s
 dependence on its avionics software, we would have expected FAA to perform
 rigorous analysis and testing prior to design certification. We found, however, that
 FAA did not require this software to be approved to the accepted industry standard
 before certification. Instead, FAA accepted an “IOU” from Eclipse, which stated that
 the aircraft would meet the accepted industry standard at a later date. In exchange,
 Eclipse agreed to maintain control of the aircraft—meaning that it would not be
 released to customers.

 While FAA guidance concerning this process allows for deviation from normal
 accepted practices, we are concerned about the level of review that FAA conducted in
 certifying the software. Specifically, FAA Advisory Circular 20-115B states the
 following:

         An applicant for an [FAA design certification] for any electronic equipment or
         systems employing digital computer technology may use the considerations
         outlined in RTCA document DO-178B [industry standards] as a means but not
         the only means to secure FAA approval of the digital computer software.

 FAA software technical specialists we spoke with told us that the RTCA document
 was essentially the “de-facto standard” for software approval. We also spoke with
 FAA inspectors (who routinely approved aircraft software applications) who stated
 that FAA’s proposed actions of accepting an IOU from the manufacturer were so
 contrary to its long-established business practices that they did not meet the safety
 standards normally required of other applicants.

 The IOU from Eclipse addressed tests that its software supplier needed to complete to
 meet industry standards for the software driving the avionics system. However, when


                                                                                                              8
FAA issued the design certificate, Eclipse’s software supplier had only completed
23 of the 65 tests. The supplier subsequently completed all 65 tests by June 2007;
however, EA-500 users continued to report problems with the cockpit instrumentation
as recently as May 2008. For example, our analysis of SDRs submitted between June
2007 and July 2008 by the largest user of the EA-500 shows 22 malfunctions of the
instrument display, including faulty airspeed readings that caused aborted take-offs
and autopilot malfunctions.

In a post-design certification, “lessons-learned” internal review of the Eclipse project,
FAA managers acknowledged that “FAA supported flight testing without completing
software validation” even though Eclipse had a “significant software vendor
integration issue.” This review also noted that “FAA created innovative processes to
support [the] program [but] there are risks associated with not following documented
processes.”

In fact, even the local FAA manager who approved the Eclipse design certification
has since expressed concerns over the process used for certifying the aircraft software.
In a July 16, 2007, memorandum to the Director of the Aircraft Certification Service
this manager stated the following:

   During the TC [design certification], we accepted a lesser level of validation and
   consequently the FAA ended up doing a great deal of developmental flying with
   Eclipse, a task that the company should accomplish prior to FAA TIA
   [preliminary aircraft] testing. In conducting a lessons learned review after the
   initial TC [design certification], we identified the level of software certification as
   an issue we would treat differently on subsequent certifications.

A specific concern related to the avionics software was that the cockpit screen
was blanking or freezing both before and after design certification. FAA
regulations state that the electronic display indicators must be designed so that if one
display fails, another display would remain available to the crew without the need for
immediate action by the pilot for continued safe operation. The cockpit display is
critical instrumentation for the pilot; it displays vital information such as airspeed,
altitude, flap position, and rate of climb. In the case of the EA-500, the cockpit
display is even more critical because there is no back-up, analogue instrumentation.

In order to award the design certificate, FAA permitted Eclipse to fix the software
“bug” that caused the screen blanking after the design certification was issued.
However, Eclipse was not able to do so until January 18, 2007—nearly 4 months after
the design certification was awarded. While this fix appeared to address the software
“bug,” our analysis of SDRs reported by the largest user of the EA-500 between June
2007 and July 2008 disclosed one instance of cockpit screen blanking that occurred
during the final approach for landing.



                                                                                        9
During the design certification process for the EA-500, Eclipse applied and FAA
approved alternate means of compliance to certify the aircraft’s system that
controls airspeed and altitude indicators. The Eclipse EA-500 design for the pitot-
static system (which indicates airspeed, altitude, and rate of climb) did not include a
drainage system for excess moisture, unlike the typical design for other aircraft.
Eclipse developed and initially tested the EA-500 pitot-static system and reported no
early significant problems. However, it is important to note that this initial testing
took place in Albuquerque, New Mexico—an extremely dry climate with little
rainfall. Once the aircraft was brought into more humid climates, such as Florida,
problems began occurring with airspeed and altitude cockpit indicators.

The source of these problems was eventually traced to moisture build-up inside the
pitot-static system. This occurred due to the unusual placement of the static ports on
the top of the aircraft nose (see figure 3 below) and the lack of drainage; the static
ports are normally located on the sides of the aircraft to mitigate moisture.

                   Figure 3. EA-500 Nose Pitot-Static Ports



                                          Static Ports




                            Source: OIG

Federal aviation regulations require that “the design and installation of each air speed
indicating system must provide positive drainage of moisture from the pitot-static
system.” However, FAA can approve a non-typical design by granting the
manufacturer an “Equivalent Level of Safety” (ELOS) exemption. In this instance,
FAA granted an ELOS for the EA-500 pitot-static tube as proposed by the
manufacturer. The ELOS was based on Eclipse’s assertion that the pitot-static system
included a heating system designed to dry any moisture that might accumulate.

According to FAA inspectors we spoke with at the Fort Worth FAA certification
office (the office responsible for Eclipse certification), they were uncomfortable that
the pitot-static design lacked sufficient drainage and declined to approve the ELOS,
even with the heating system. To overcome these objections, FAA referred the ELOS
approval to the Kansas City Small Airplane Directorate, which agreed to approve it.



                                                                                     10
In response to the pitot-static system problem, FAA issued an AD on June 14, 2007,
limiting operations of the aircraft to two-pilot operations only and only under visual
flight rule conditions. 4     FAA issued a second AD that was effective on
February 26, 2008. This AD lifted the restrictions for those aircraft whose owners
had installed the design modification for the pitot-static system developed by Eclipse
for existing aircraft. However, users we spoke with told us that while the
modification required by the AD has helped reduce the number of incidents, it has not
eliminated the problem.

For example, as recently as April 2008, the pilot of an EA-500 experienced a warning
signal that the two instruments measuring airspeed did not agree during take-off. The
pilot then aborted the take-off and returned the aircraft for maintenance inspection.
Subsequent inspection of the aircraft revealed moisture build up in the pitot-static
system; after draining out the moisture, the aircraft returned to normal service without
problems.

Eclipse aircraft users continued to report other post-design certification
problems with the EA-500, including erroneous stall warnings, flap movement
failures, and a high rate of tire failure.

    • Erroneous Stall Warnings: The EA-500 experienced erroneous stall warnings
      before and after the design certificate was awarded. FAA regulations state
      “. . . the stall warning must not occur during takeoff with all engines operating, a
      takeoff continued with one engine inoperative, or during an approach to landing.”
      These stall warnings continued to occur after Eclipse received its design certificate
      on September 30, 2006. According to FAA pilots we spoke with, erroneous stall
      warnings can be extremely hazardous, particularly when landing. For example,
      they may cause pilots to either take urgent actions that can prove dangerous based
      on the belief that they are experiencing a stall or ignore them because they have
      proven to be erroneous in the past.

      Nearly 3 months after the design certification was issued, FAA was able to
      attribute some of the stall warnings to flying the aircraft at inappropriate speeds.
      However, pilots have recently reported this problem with the EA-500 through
      SDRs and a voluntary, anonymous safety reporting system, the Aviation Safety
      Reporting System. At least three additional reports regarding stall warnings have
      been reported through these two systems between June 2007 and July 2008. All
      three involved problems on take-off.




4
    Flying under visual flight rules (VFR) requires that the pilot (or pilots) have enough forward visibility and clearance from
    clouds to safely operate the aircraft without referring to cockpit instruments.


                                                                                                                            11
• Flap Movement Failures: FAA regulations state that the main wing flaps must be
  designed so that the occurrence of flap failure is “extremely improbable.”
  However, both before and after the design certificate was awarded, the aircraft had
  problems with flaps sticking in position. The impact of this on the aircraft is that a
  “flaps up” landing can require up to 100 percent more landing distance. This
  landing length may not be available for every general aviation pilot who flies the
  EA-500, which is not equipped with anti-skid brakes. During testing of the
  aircraft in December 2006, FAA’s Flight Standardization Board recommended
  that it be restricted to two-pilot operations stating:

     The immediate issue that has caused the Board to reach this conclusion
     is the repeated flap failures that have occurred during recent flights.
     These failures are now approaching a frequency of one flap failure for
     every 10 attempts to operate the flaps. The flight control problem
     affects safety of flight and acceptable operational reliability.

 FAA Headquarters officials overruled the Board’s recommendation and approved
 it for single-pilot operations in January 2007 after receiving a customer service
 complaint from Eclipse. While only 1 instance of flap failure was reported
 through an SDR after design certification, our analysis of SDRs from the largest
 EA-500 user between June 2007 and July 2008 disclosed 21 reports of other flight
 control part malfunctions (i.e., rudder, flaps, aileron, and elevator).

• High Rate of Tire Failure: During our site visits to the largest user of the EA-500,
  pilots we spoke with raised other issues that were not identified during the design
  certification of the aircraft. For example, they expressed concerns about a high
  frequency of tire failure associated with the aircraft. In subsequent discussions
  with these and other EA-500 users, they told us that the high rate of tire failure
  was likely due to the fact that the aircraft was initially designed for use on “soft
  fields” (i.e., dirt and grass). However, it is now being used almost exclusively on
  standard, paved airport runways.

 Since the tires were meant for soft field use, they are softer and less durable than
 the harder, longer-lasting aircraft tires commonly used on standard, paved
 runways. As a result, the aircraft requires an even higher degree of speed control
 and precision upon landing to prevent tire “blow-outs” during landing, which
 places additional workload on the pilots. Because pilots continued to report tire
 failures with the EA-500, Eclipse has submitted the required data to FAA to obtain
 certification for a more durable tire.

 Pilots also expressed concerns that the tires on the aircraft were wearing
 excessively because the landing gear was designed with a slight inclination
 inwards, towards the fuselage. As a result, the entire surface of the tires was not
 contacting the runway evenly, thus causing excessive wear on the exposed sides of


                                                                                     12
    the tires. We understand that Eclipse is modifying the aircraft’s design to correct
    this problem.

According to FAA, none of the problems experienced by users today were
identified during the design certification. FAA asserts that none of the current
problems experienced by EA-500 users were identified during the design certification.
However, in our opinion, there is sufficient evidence that these problems were
occurring during that period and that FAA should have known about them.

For example, in the 2 weeks preceding award of the design certification on
September 30, 2006, Eclipse test-flew the aircraft for 100 hours as a pre-condition for
receiving the certification. During those flights, the pilots experienced (1) at least
4 erroneous stall warnings during landing, (2) 10 instances of cockpit screen freezing
or blanking, and (3) 18 cases of actual flap failure or flap-failure messages on the
cockpit display. All of these are problems that users continued to report after design
certification. Table 1 shows the design problems that occurred before and after FAA
awarded Eclipse its design certification.

                   Table 1. Eclipse EA-500 Design Discrepancies Found
                           Before and After Design Certification
                      Pre-Design Certification                             Post-Design Certification
              \a
Issue Found         Joint FAA &           Flight                Flight               Service              Aviation
                    Eclipse Flight    Standardization       Standardization         Difficulty        Safety Reporting
                      Testing\b           Board\b               Board               Reports                System
Erroneous
Stall                     4                   9                     10                   2                   1
Warnings
Screen                                                           None
                         10                   2                                          1           None Documented
Blanking                                                      Documented
Flap                                       None
                         18                                         8                    1                   1
Malfunctions                            Documented
Airspeed                                   None                  None
                          1                                                             13                   2
Disagrees                               Documented            Documented
Air Data
                                           None
Computer                 20                                         1                    1           None Documented
                                        Documented
Failures
Autopilot                                  None                  None
                          7                                                              3                   2
Failures                                Documented            Documented
\a Number of instances based on documentation obtained currently; more instances may exist.
\b Joint FAA & Eclipse Flight Testing accomplished by Aircraft Certification Office (ACO) Pilots; Flight
   Standardization Board testing conducted by separate group of FAA pilots.
   Source: OIG analysis of FAA data

Based on the results of our investigation to date, the conclusions in FAA’s lessons-
learned review, and—most importantly—the problems that continue to impact pilots,
we believe that FAA should have exercised greater diligence in certifying the EA-500
design. Going forward, FAA must ensure that the approval of aircraft involving so



                                                                                                                   13
many unknowns (e.g., new technology and new manufacturer) is subjected to close
scrutiny and thorough risk analysis.

Last month, at our recommendation, FAA established a Special Certification Review
Team to verify that Eclipse corrects design and production problems associated with
the EA-500 and determine that the aircraft is in condition for safe operations. The
team completed its assessment last week and concluded the EA-500 met applicable
certification requirements for the issue areas reviewed. We received a copy of the
team’s report on Saturday and are reviewing its findings and recommendations.

FAA Awarded Eclipse a Production Certificate Even Though It
Knew of Deficiencies in Eclipse’s Quality Control and Supplier
Control Systems
FAA granted Eclipse a production certificate on April 26, 2007. A production
certificate is FAA’s approval to manufacture aircraft using an FAA-approved design.
Prior to obtaining a production certificate, every aircraft manufactured by Eclipse was
required to receive an FAA inspection and certificate of airworthiness before it could
be released to a customer. Once Eclipse received its production certificate, however,
it could mass produce and certify its own aircraft for airworthiness without FAA
inspection approval.

Before receiving a production certificate, manufacturers are required to undergo two
steps: (1) FAA quality control audits and (2) an FAA Production Certification Board
review. Once FAA completes its quality control audits and the manufacturer has
corrected all findings, FAA will convene the Board to consider a manufacturer’s
application for production certification. The purpose of this review is to determine if
the manufacturer has complied with all regulations required to obtain a production
certificate.

A key issue for the Board is to ensure that corrective actions for any non-satisfactory
conditions of non-compliance have been addressed prior to issuing a production
certificate. In the case of the EA-500, however, we found that FAA issued the
production certification before Eclipse corrected identified deficiencies. Further,
FAA audits of Eclipse supplier controls, which were conducted post-production
certification, found that significant deficiencies continued to occur.

Beginning in July 2006, FAA safety inspectors who specialize in aircraft
manufacturing conducted three quality control audits of Eclipse. Each of these audits
identified numerous deficiencies, including improperly manufactured parts and
uncalibrated, unmarked tools. For example, one review conducted by FAA in
February 2007 identified 42 deficiencies, including 4 involving software used for
aircraft operations (e.g., pilot displays).



                                                                                    14
On April 10, 2007, when the Production Certification Board was convened, only 29 of
the 42 deficiencies identified in FAA’s quality control audits had been corrected.
Despite the 13 uncorrected deficiencies, the Board finalized the on-site (in New
Mexico) portion of its review of Eclipse quality control on April 12, 2007.

On April 21, 2007, the Board arrived in Japan to review one of Eclipse’s foreign
suppliers. It completed this portion of the review on April 26, 2007—the same day
that FAA awarded Eclipse its production certification. When the Board finalized its
review and transmitted its findings to Eclipse on May 21, 2007, (almost a month after
Eclipse had the production certification) it identified two serious, overarching non-
conformities with Eclipse production.

First, the Board concluded that Eclipse had not completed the requirement to show
that it had established and could maintain a quality control system. Second, based on
its review in Japan, the Board concluded that Eclipse had significant issues with
control over its suppliers.

Despite the impact that these non-conformities could have on the production process,
FAA awarded the production certification to Eclipse on April 26, 2007, with a total of
13 known, unresolved production problems (primarily associated with Eclipse
supplier and quality control systems). The Board did not close out its open review
items until February 2008. The following timeline shows key dates leading up to the
production certification for the EA-500.

                                     Figure 4. Eclipse Production Certification
                                                 OIG receives
        2006        2007                         complaint           FAA issues                                   FAA issues EA-500
                                                 about EA-500        3rd QA audit
                    FEB        MAR                                                    APR
                                                                                                                  production certification      MAY
                      5          2             15 17 20 22                                   10              21        26                       21



  FAA did 2       FAA          FAA removes                                                   PC Board on-
                                               FAA develops                                                 PC Board                         PC Board
  quality control begins 3rd   inspection                            Eclipse certification   site audit
                                               policy stating                                               foreign                          issues audit
  audits (Jul and QA audit     team manager                          project moved from
                                               floorboard/interior                                          supplier audit                   findings to
  Sep)                         to appoint                            San Antonio to Ft.
                                               inspections not                                                                               Eclipse
                               former FAA                            Worth
                                               required
                               certification
                               deputy

Source: OIG analysis of FAA data


Three months after FAA issued the production certification, the 13 unresolved
action items remained open. We are concerned because FAA was aware of
unresolved deficiencies that continued after it granted Eclipse its production
certification. In a July 16, 2007, memo to the Director of Aircraft Certification, the
local certification office manager stated the following:




                                                                                                                                                            15
       Thirty-two airplanes have received Standard Airworthiness certificates.
       Twenty-one of these have been since the Production Certificate was
       [issued] on April 26, 2007. There are 13 action items on the Project
       Certification Plan that completes the [production certificate]. Some of
       these action items are complete and some are behind schedule. Eclipse
       is scheduled to complete the action items by the end of the year.

The 13 remaining findings included requirements addressing Eclipse’s oversight of its
suppliers and adherence to its own quality assurance processes. For example,
corrective actions to address these 13 findings included the following:

 • Establish new procedures for Eclipse to inspect its suppliers on site.
 • Establish new procedures to inspect parts received from foreign suppliers.
 • Develop and submit a “shelf-life” policy to determine when certain aircraft parts
   have expired (e.g., sealants, engine oil, and fluid compounds).
 • Develop procedures to protect parts vulnerable to damage from electrostatic
   discharge (i.e., parts/software that could be damaged by power surges and other
   electrical shock).
 • Perform an internal audit of its quality assurance processes.

Additionally, before Eclipse received its production certification, it encountered
numerous problems replicating its own aircraft design on the factory floor. A
significant concern was that manufacturing deficiencies were not identified by
Eclipse’s ODAR inspectors designated to certify aircraft airworthiness. For example,
in one instance, Eclipse presented an aircraft to FAA for airworthiness certification
with approximately 20 airworthiness deficiencies, even though an FAA-approved
ODAR inspector had previously inspected the aircraft for airworthiness and found no
non-conformities.

Other examples of deficiencies FAA identified included improperly installed fasteners
on the wings, oxygen lines routed across control cables, and wires chafed by the
airframe. Aircraft also failed functional test procedures for critical systems such as
landing gear, communications, flaps, pitch trim, fire protection, and transponders.

FAA inspectors told us that Eclipse repeatedly submitted aircraft for airworthiness
certification with previously identified discrepancies that had still not been corrected,
and they expressed frustration over the time and resources spent inspecting aircraft
that were clearly not ready for inspection. For example, on the first aircraft, FAA
inspectors found deficiencies associated with the landing gear on eight separate
inspections. Table 2 below shows discrepancies that FAA inspectors identified on the
first three EA-500 aircraft after they were certified by Eclipse inspectors.



                                                                                      16
  Table 2. Manufacturing Deficiencies Found by FAA Inspectors After
               Eclipse Inspectors Certified the Aircraft
                       Discrepancy                      Aircraft 1   Aircraft 2   Aircraft 3
         Failed Functional Tests
         Landing Gear Rigging                            8 times
         Landing Gear on Extension During
         Flight Test                                                  2 times
         Aileron Trim                                    2 times
         Bleed Air Supply Subsystem (BASS)               4 times
         Cabin Pressurization                            5 times
         Electrical Power Distribution System            2 times
         Pitot-Static System                                          2 times      3 times
         Transponder                                     2 times
         Airspeed Measuring System/Air Data
                                                         3 times      2 times
         System
         Oxygen Mask Drop                                                          2 times
         Wire Chafing
         Numerous wire bundles on aircraft
                                                                      3 times
         structure behind instrument panel
         Engine Bleed Valve Line on insulation            1 time
         Starter Generator cables assembly                1 time
         Multi-Functional Display Wires on the
                                                                       1 time
         aircraft structure, both sides
         Loose Wiring
         Engine wiring harness to BASS module             1 time
         Canon Plug and Wire Harnesses                    1 time
         Electrical connectors where the wings
                                                                       1 time
         attach to the fuselage, left and right sides
         Weight & Balance
         Human Calculation Errors                        2 times       1 time
         Rivets/Grommets/Fasteners
         Engine grommet misaligned                        1 time
         Fasteners and rivets improperly installed                    2 times       1 time
        Source: OIG analysis of FAA data

After granting the production certification, FAA audits of Eclipse supplier
controls found significant deficiencies occurring that should have been corrected.
During our investigation, we found that FAA inspectors conducting audits of
Eclipse’s supplier quality control between February and August of 2008 identified
multiple issues that should have been corrected. FAA initiated enforcement actions
for seven out of the seven Eclipse suppliers it audited. That is, during the audits, the
FAA inspectors identified serious non-conformities associated with aircraft parts,
materials, or manufacturing processes used for the EA-500 by Eclipse suppliers.
These included the following:




                                                                                               17
 • Receiving or Accepting Non-Conforming Parts or Tools: Suppliers were not
   performing receiving inspections for parts or materials received from their
   suppliers. In addition, suppliers were producing parts using design specifications
   that were either unapproved or outdated. Suppliers also received, accepted, and
   used non-conforming materials from their suppliers.

 • Parts Not Properly Stored or Marked: Non-conforming/deficient parts were found
   on the suppliers’ shop-room floors that were not marked as deficient, which meant
   that technicians could not determine if they passed or failed a receiving inspection;
   therefore, they could have been mistakenly used in production.
 • Failure To Follow Manual Procedures: Work instructions at one foreign supplier
   were not written in English, which meant that inspectors from both the
   manufacturer and FAA could not verify that the work instructions were written as
   required. Supplier personnel were also using outdated instructions to perform
   weight and balance calculations of flight control surfaces (i.e., flaps, ailerons,
   etc.). In addition, suppliers’ certificates of conformance (a tag confirming that the
   part conforms to requirements) did not contain process specifications as required
   by the engineering documentation.
 • Uncalibrated Tools: Several gauges that require strict calibration were found
   uncalibrated. Further, these tools were not included in the database that tracks
   tool calibration (this system ensures that tools requiring calibration meet required
   specifications within required timeframes). Calibrated tools are highly sensitive
   and used in safety-critical manufactured components, such as the wing assembly
   or the actuators that control flight surfaces (i.e., flaps, ailerons, etc.).
 • Revisions to Tooling and Procedures Without Approval From Eclipse: FAA
   inspectors observed technicians hand-trimming hinge and access covers for the
   elevator (which controls aircraft pitch) without any documentation or engineering
   authorizations. In addition, one supplier revised supplier manuals, material
   specifications, process specifications, and workmanship standards with no
   evidence that the changes had been approved by Eclipse or FAA.

Additionally, at the largest user of the EA-500, mechanics found problems with
Eclipse supplier-manufactured parts on 26 of the 28 EA-500 aircraft operated by the
company. Specifically, Eclipse supplier-manufactured bell cranks (which control
aileron movement) were corroding, causing excessive friction during operation
resulting in severe degradation and limited functionality. As a result, all 26 aircraft
had to have their bell cranks replaced—some on more than 1 occasion. In one
instance, an aircraft’s bell crank had to be replaced only 6 weeks after that aircraft’s
airworthiness certificate was issued.

The fact that these issues continued to occur post-production raises questions about
FAA’s ability to maintain proper oversight when advancing the production of new


                                                                                     18
aviation technology. FAA has established good steps to oversee this process, but
those steps were rendered ineffective since FAA treated them as mere formalities
rather than prerequisites to certification.

FAA’s Desire To Promote the Use of VLJs May Have Contributed to
Its Decision To Accelerate the Eclipse Certification Process
A significant concern surrounding this issue, Mr. Chairman, is that FAA specifically
designated the Eclipse EA-500 VLJ as a priority project for certification. In FAA’s
Aviation Safety line of business FY 2006 Performance Plan, FAA identified Eclipse
as a priority certification activity, stating that it would support the operation of VLJs
in the National Airspace System by issuing:

     . . . a [design certification] for a new small airplane by September 2006.
     Eclipse Aviation will obtain [a design certification] for small jet powered
     by P&W [Pratt and Whitney] 610 engines and using extensive new
     technology avionics.

We are concerned that the specific designation of Eclipse as a priority certification
may have resulted in undue pressure to meet the deadline, thereby resulting in reduced
vigilance from FAA during the aircraft’s design and production certification
processes. In FAA’s post-design certification, lessons-learned review of the Eclipse
project, FAA managers acknowledged that “FAA supported an aggressive
certification schedule” and that it expended “32,000 hours; $2.0 million (salary,
travel, and overtime costs); and hundreds of hours of [compensatory] time,”
indicating that they believed these efforts were inappropriate.

In fact, with authorization from FAA managers, three inspectors exceeded the number
of overtime hours allowed by Federal regulations in their attempt to ensure Eclipse
received its design certification by the September 2006 deadline. In addition, as a
pre-condition to receiving design certification, FAA flew the test plane for 30 flights,
encompassing 100 flight hours over the 2-week period preceding the
September 30, 2006, issuance of the design certificate.

An important point, Mr. Chairman, is that FAA met its Performance Plan deadline
and awarded the design certification to Eclipse on Saturday, September 30, 2006.

With the significant risks posed by a new aircraft utilizing new technology and
produced by a new manufacturer, we would have expected that FAA would have
exercised greater scrutiny in certifying the aircraft. In addition, because the EA-500
has advanced avionics and turbine engine technology typical of large transport aircraft
combined with the light weight of smaller, private aircraft, it did not easily fit into
FAA’s existing certification framework.




                                                                                      19
FAA chose to certify the aircraft and other VLJs using certification requirements for
general aviation aircraft rather than more stringent certification requirements for
larger transport aircraft. However, in FAA’s post-design certification, lessons-learned
review of the Eclipse project, FAA managers acknowledged that the general aviation
certification requirements were “inadequate to address the advanced concepts
introduced on this aircraft.” We understand that FAA is developing an NPRM to
clarify certification requirements for VLJs. Given the issues surrounding the EA-500
certification, FAA should expedite the NPRM to allay future concerns with this
expanding industry segment.

In addition to the priority certification, we identified four issues that raise concern
regarding FAA’s safety oversight focus in this matter: (1) FAA granted Eclipse an
ODAR appointment much earlier in the process than it has for other manufacturers,
(2) FAA granted single-pilot operation certification for the EA-500 despite concerns
from the FAA Flight Standardization Board and users, (3) FAA replaced the
inspection team overseeing Eclipse and restricted the new team’s inspection activities,
and (4) a former FAA engineer assigned to the Eclipse project took a position as
Director of Certification for Eclipse.

FAA granted Eclipse authority to certify its aircraft for airworthiness before
approving the design, which is far earlier than it has for other manufacturers.
FAA granted Eclipse an ODAR appointment on September 3, 2002. The ODAR
designation allowed the company to approve and document parts as they were
manufactured, with internal Eclipse inspectors overseeing manufacturing processes on
FAA’s behalf. To receive an ODAR designation, FAA regulations require the
organization to have proven experience to perform the functions for which the
authorization was requested.

FAA does not typically grant ODAR authority before an aircraft company obtains its
design certification. However, FAA guidance allows for this if the organization has a
“high probability of obtaining a production certificate.” In the case of Eclipse, FAA
granted ODAR designation to the manufacturer 4 years before the company obtained
a design certificate for its aircraft and 5 years before it obtained its production
certification.

Given that FAA must have known that Eclipse was several years away from obtaining
design certification, we question how FAA determined the company had a “high
probability” of receiving its production certificate. FAA has granted ODAR
authorization prior to issuing a design certification for only one other new VLJ
manufacturer, Adam Aircraft; however, this manufacturer is in bankruptcy. In fact, as
shown in table 3 below, Eclipse is the only operating manufacturer to receive its
ODAR authorization before the aircraft design was approved by FAA.




                                                                                    20
          Table 3. FAA Approvals for Other New Manufacturers of VLJs
      Manufacturer            Design Certificate               Production Certificate                    ODAR issued
                                    Issued                            Issued
      Eclipse                 September 30, 2006                   April 26, 2007                     September 3, 2002

      Cirrus                    October 23, 1998                     June 12, 2000                    September 8, 2006

      Liberty                  February 19, 2004                     April 6, 2006                    November 18, 2006
      Aircraft
      Adam Aircraft               May 11, 2005                         None                              May 17, 2002
                                                                 (Company bankrupt)
      Sino                      October 27, 2005                       None                                   None
      Swearingen*
  *   The small jet from this manufacturer was not classified as a VLJ because of its weight, but it is often used for comparison
      purposes to the Eclipse certification because it was design certified by the same FAA office during the same time period.
      Source: OIG analysis of FAA data

It is unclear why FAA determined that Eclipse met the qualifications to perform its
own inspections since Eclipse was a new manufacturer with no history of
manufacturing an aircraft or shepherding a design through the design certification
process. In our view, these facts should have raised questions regarding Eclipse’s
ability to perform this function. As discussed earlier, FAA inspectors found
numerous deficiencies on planes that had been inspected and approved by Eclipse
inspectors with ODAR designations. This would indicate that FAA granted early
ODAR authority in an attempt to expedite the certification process, rather than
granting it as a result of diligent and thorough oversight.

We also found evidence indicating that the individuals selected for the Eclipse ODAR
may not have been fully qualified to perform inspection tasks. For example, when
one FAA principal inspector showed improperly installed fasteners to Eclipse ODAR
authorized representatives, they could not articulate how to inspect for proper
installation. The FAA inspector expressed significant concerns that the ODAR
representatives lacked sufficient knowledge to certificate the airworthiness of aircraft.

In our opinion, FAA should carefully evaluate the propriety of granting ODAR
authority for new, inexperienced manufacturers prior to design certification,
especially in the case of light-weight aircraft that rely heavily on new technology.
Further, FAA’s ODAR designation process should more thoroughly evaluate
designees’ skill level and experience and ensure that the company designees are
allowed to conduct their inspections properly and without interference from the
manufacturer. In the case of Eclipse, FAA’s post-design certification, lessons-learned
review noted that [ODAR] designees “reported pressure by the company to make
submittals before data was [sic] complete.”




                                                                                                                                    21
FAA granted single-pilot certification for the EA-500 despite concerns from the
Flight Standardization Board and users: Eclipse originally envisioned and
designed the EA-500 as a single-pilot aircraft with the goal of marketing it to
individual owners. However, pilots reported in-flight concerns (e.g., complexity of
new software, cockpit display “freezing,” discrepancies with airspeed and altitude
indicators, and a minimally effective autopilot system) that could create an undue
burden on a single pilot. Because of these factors and the level of the aircraft’s
functionality at the time, FAA’s Flight Standardization Board determined on
December 13, 2006, that the aircraft required a two-pilot crew.

Despite the concerns raised by FAA’s Flight Standardization Board, the President and
Chief Executive Officer of Eclipse initiated a customer service complaint on
December 15, 2006, against the Board to protest its two-pilot recommendation for the
aircraft. In a December 21, 2006, response to Eclipse, the Director of Flight
Standards Service agreed with the company’s assertions without additional testing or
information, stating that he “wanted to assure [Eclipse] that Flight Standards will do
everything possible to work with Eclipse Aviation in assuring a successful conclusion
to our efforts.”

An important point, Mr. Chairman is that on January 29, 2007, FAA rescinded the
recommendation and determined that a single pilot could operate the aircraft at the
aircraft’s existing level of functionality.

Yet, the overseas equivalent to FAA, the European Aviation Safety Agency (EASA),
has declined to certify the EA-500 for operation in Europe. EASA’s primary concern
is that single-pilot operation is unsafe due to the lack of normally required equipment
on the aircraft, such as a robust autopilot system. Conversely, EASA certified the
Cessna Mustang VLJ, which had the necessary equipment to meet its level of
certification, with no additional requirements.

We spoke with pilots at the largest operator of Eclipse aircraft, one of whom stated
that he “lacked confidence that the aircraft could be operated safely by a single pilot.”
These concerns are even more significant considering that the pilots we spoke with
have considerable amounts of commercial flying time. Further, they work for a
company that has well-organized flight operations and dedicated maintenance support
and uses two-pilot flight operations with the EA-500. This company also worked
closely with the manufacturer to develop its own solutions for problems discovered in
its fleet of purchased Eclipse aircraft. By contrast, a single pilot or owner is likely to
have less flight experience and no dedicated maintenance or flight operations support.




                                                                                       22
FAA replaced the inspection team that had identified deficiencies at Eclipse and
limited inspection activities. We found that FAA replaced the original FAA
inspectors on the Eclipse project and limited the replacement team from thoroughly
inspecting the aircraft. At this point, in March 2007, Eclipse had received the design
certification, and its aircraft were undergoing FAA airworthiness inspections. These
were required as the company had not yet received its production certification. Upon
receipt of this certification, the company would be able to mass produce the aircraft
without FAA certifying the airworthiness of each individual aircraft.

After multiple incidents of aircraft being presented to FAA for airworthiness
certifications when numerous deficiencies existed, the manager of the FAA
manufacturing inspection office sent an e-mail to Eclipse on February 26, 2007, with
the approval of his supervisor.

In the e-mail, he detailed all of the steps that Eclipse needed to complete to comply
with FAA requirements for obtaining an airworthiness certificate. According to FAA
officials we spoke with, Eclipse senior management believed these requirements
exceeded the FAA regulations and complained to officials within FAA Headquarters.
In March 2007, FAA Headquarters officials removed the FAA manager who sent the
e-mail from the project, stating that he had stepped outside his authority in laying out
the regulatory requirements to the manufacturer.

We spoke with other FAA managers, including the supervisor of the removed
manager, and they stated that the steps outlined in the e-mail were appropriate
because FAA is ultimately responsible for certifying the airworthiness of each new
aircraft. Specifically, FAA Order 8130.2F places the responsibility on FAA to ensure
that each aircraft manufactured under its design certificate meets the approved design
and is in condition for safe operation.

FAA Headquarters officials also removed the Directorate Manager in charge of both
the manufacturing inspection and design certification offices from the Eclipse project.
In a six-page letter of reprimand, FAA officials stated that the Directorate Manager
failed to meet expectations associated with meeting its customer service initiatives.
Specifically, the letter stated that he needed to “build relationships with our customers
and achieve operational results.” The letter further stated “your personal relationship
with the Eclipse Executives is deficient. As [Eclipse is] one of your major customers
we expect you to work to improve the relationship.”

In fact, FAA Headquarters officials required the Directorate Manager to undergo a
peer appraisal, consisting of a 360° review (i.e., a process for collecting observations
from multiple sources about individual performance) and invited the Chief Operating
Officer of Eclipse to be one of the individuals appraising his performance in
certifying the EA-500. While the Directorate Manager’s supervisors were the group



                                                                                      23
that rated him lowest, the Directorate Manager’s customers were the group that rated
him the highest.

With the removal of the local inspection manager, the Directorate Manager, and other
FAA inspectors who repeatedly identified discrepancies, the FAA Headquarters
Director of Aircraft Certification at FAA Headquarters assigned his former deputy
responsibility for managing oversight of the Eclipse certification project. The deputy
assembled a new team of inspectors and developed a policy that limited the
inspectors’ ability to fully inspect the aircraft for airworthiness. The deputy was also
selected as a member of the FAA Special Certification Review Team, which recently
concluded that the design certification of the EA-500 met FAA standards.

Specifically, FAA’s Production Certification Plan did not require Eclipse employees
to remove floorboards or interior panels for FAA inspectors. Before this policy was
established, FAA inspectors had found numerous deficiencies on planes that had
already been inspected and certified by ODAR-designated Eclipse inspectors.

In FAA’s post-design certification, lessons-learned review of the Eclipse project,
FAA managers acknowledged that “issues were not worked at the appropriate levels
in the organization.” In our view, FAA’s actions in this instance present a troubling
picture of the production certification process for the EA-500 and underscore our
concerns that the Agency focused primarily on promoting new aviation technology
rather than ensuring proper safety oversight.

A former FAA engineer assigned to the Eclipse project became Eclipse’s
certification director. During our review, we were concerned about an unusual set
of circumstances surrounding the former FAA project officer on the Eclipse
certification project. The engineer worked on the Eclipse certification project from
January 2000 until October 2001. In his capacity as the project officer for FAA, the
engineer evaluated and approved Eclipse’s proposed methods for meeting FAA’s
certification requirements for the design phase of the aircraft.

When he left FAA, he immediately went to work at Eclipse as the Director of
Certification. In his new role with Eclipse, he served as the focal point between
Eclipse and FAA regarding the company’s compliance with FAA’s certification
requirements. Essentially, he performed the same function for the company as he did
under FAA, with no consideration given to any potential conflicts of interest.

We have previously recommended that FAA revise its post-employment guidance for
aviation safety inspectors to require a “cooling-off” period when an FAA inspector is
hired at an air carrier he or she previously inspected. To avoid potential conflicts of
interest, FAA should also consider applying this requirement when aircraft
certification inspectors or engineers leave the Agency for employment with private
aviation companies that they previously regulated.


                                                                                     24
FAA Must Take Immediate Actions To Ensure That Continuing
Problems Reported by Eclipse Users Are Quickly Resolved
Mr. Chairman, the results of our investigation and those of the NTSB, as well as
concerns expressed by EA-500 users and FAA employees, clearly underscore the
need for FAA to take immediate actions to ensure that existing problems reported by
Eclipse users are quickly resolved.

Last month, at our recommendation, FAA established a Special Certification Review
Team to verify that Eclipse corrects design and production problems associated with
the EA-500 and determine that the aircraft is in condition for safe operations. The
team completed its assessment last week and concluded that the certification of the
EA-500 was appropriate for the areas reviewed. We received a copy of the team’s
report on Saturday and are reviewing its findings and recommendations. However,
based on the interim results of our investigation, we are recommending that FAA take
the following actions:

 1. In view of the problems we have identified, FAA must reassess the propriety of
    its single-pilot certification for the EA-500.

 2. FAA must expedite its NPRM to clarify certification requirements for the
    expanding VLJ industry segment given the differences between certification
    requirements for large transport and general aviation aircraft.

 3. FAA should carefully evaluate the propriety of granting ODAR authority to new,
    inexperienced manufacturers prior to design certification. Further, FAA’s
    ODAR designation process must more thoroughly evaluate designees’ skill level
    and experience and ensure that the company designees are allowed to conduct
    their inspections properly and without interference from the manufacturer.

 4. FAA must discontinue prioritizing specific manufacturers’ programs in its
    Performance Plan for special attention to prevent any appearance of favoritism
    or the perception of diminished vigilance in its oversight mission.

 5. FAA must implement a “cooling-off” period for its aircraft certification safety
    inspectors and engineers before allowing them to accept positions with the
    manufacturers they formerly regulated.

That concludes my testimony, Mr. Chairman. I would be happy to answer any
questions you or other Members of the Subcommittee may have.




                                                                                 25
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
             FAA’s Certification of the Eclipse EA-500 Very Light Jet
                      Section 508 Compliant Presentation

Figure 1. Eclipse Design Certification Timeline


• July 2001: Eclipse applies for design certification.

• October 2001: Former FAA employee becomes Eclipse Director of Certification.

• September 2002: Eclipse receives Organizational Designated Airworthiness
  Representative (or ODAR) authority.

• July 21, 2006: First quality assurance audit finds unauthorized tooling change and
  failure to do first article inspection. (Note: a first article inspection is a required
  inspection of a newly produced or revised part, assembly, or product).

• July 27, 2006: Provisional design certification granted. (Note: a provisional design
  certification is an approval of the aircraft design that allows for limited flight and
  operational testing of the aircraft).

• September 15, 2006: Eclipse applies for production certification.

• September 21, 2006: Second quality assurance audit finds loose wire bundles and
  crossed brake fluid lines.

• September 30, 2006: FAA issues EA-500 design certification.

Source: OIG analysis of FAA data

Figure 2. Comparison of Cessna and Eclipse Cockpit Systems

Figure shows side-by-side photographs of the Eclipse EA-500 and Cessna Mustang
cockpit systems. The figure notes that the Cessna Mustang cockpit has analogue
instrumentation (gauges) in addition to a computer screen display while the EA-500
cockpit relies exclusively on a computer-based system.

Figure 3. EA-500 Nose Pitot-Static Ports
Photograph of the nose of the EA-500 aircraft. Arrows point to the pitot-static ports
located on top of the aircraft nose.
Table 1. Eclipse EA-500 Design Discrepancies Found Before and After Design
Certification

Table 1 shows the design problems that occurred before and after FAA awarded
Eclipse its design certification.

   1. Erroneous Stall Warnings: Before design certification, joint FAA and Eclipse
      flight testing reported 4 instances and the FAA Flight Standardization Board
      reported 9 instances. After design certification, the FAA Flight
      Standardization Board reported 10 instances, Service Difficulty Reports
      disclosed 2 instances, and the Aviation Safety Reporting System disclosed 1
      instance.

   2. Screen Blanking: Before design certification, joint FAA and Eclipse flight
      testing reported 10 instances and the FAA Flight Standardization Board
      reported 2 instances. After design certification, the FAA Flight
      Standardization Board had no documented instances, Service Difficulty
      Reports disclosed 1 instance, and the Aviation Safety Reporting System had no
      documented instances.

   3. Flap Malfunctions: Before design certification, joint FAA and Eclipse flight
      testing reported 18 instances and the FAA Flight Standardization Board had no
      documented instances. After design certification, the FAA Flight
      Standardization Board reported 8 instances, Service Difficulty Reports
      disclosed 1 instance, and the Aviation Safety Reporting System disclosed 1
      instance.

   4. Airspeed Disagrees: Before design certification, joint FAA and Eclipse flight
      testing reported 1 instance and the FAA Flight Standardization Board had no
      documented instances. After design certification, the FAA Flight
      Standardization Board had no documented instances, Service Difficulty reports
      disclosed 13 instances, and the Aviation Safety Reporting System disclosed 2
      instances.

   5. Air Data Computer Failures: Before design certification, joint FAA and
      Eclipse flight testing reported 20 instances and the FAA Flight Standardization
      Board had no documented instances. After design certification, the FAA
      Flight Standardization Board reported 1 instance, Service Difficulty Reports
      disclosed 1 instance, and the Aviation Safety Reporting System had no
      documented instances.

   6. Autopilot Failures: Before design certification, joint FAA and Eclipse flight
      testing reported 7 instances and the FAA Flight Standardization Board had no
      documented instances. After design certification, the FAA Flight
      Standardization Board had no documented instances, Service Difficulty
      Reports disclosed 3 instances, and the Aviation Safety Reporting System
      disclosed 2 instances.

Note A: The number of instances shown in table 1 is based on documentation
obtained currently; more instances may exist.

Note B: Joint FAA and Eclipse Flight Testing accomplished by Aircraft Certification
Office Pilots; Flight Standardization Board testing conducted by a separate group of
FAA pilots.

Source: OIG analysis of FAA data

Figure 4. Eclipse Production Certification Timeline

 • 2006: FAA did 2 quality control audits in July and September.

 • February 5, 2007: FAA begins third quality assurance audit.

 • March 2, 2007: FAA removes inspection team manager to appoint former FAA
   certification deputy.

 • March 15, 2007: FAA develops policy stating that floorboard/interior inspections
   are not required.

 • March 17, 2007: Eclipse certification project moved from San Antonio to Fort
   Worth.

 • March 20, 2007: Office of Inspector General receives complaint about EA-500.

 • March 22, 2007: FAA issues third quality assurance audit.

 • April 10, 2007: Production Certification Board begins on-site audit.

 • April 21, 2007: Production Certification Board begins foreign supplier audit.

 • April 26, 2007: Production Certification Board completes foreign supplier audit.

 • April 26, 2007: FAA issues EA-500 production certification.

 • May 21, 2007: Production Certification Board issues audit findings to Eclipse.

Source: OIG analysis of FAA data
Table 2. Manufacturing Deficiencies Found by FAA Inspectors After Eclipse
Inspectors Certified the Aircraft

Landing Gear Rigging: failed functional test on first aircraft 8 times.

Landing Gear on Extension During Flight Test: failed functional test on second
aircraft 2 times.

Aileron Trim: failed functional test on first aircraft 2 times.

Bleed Air Supply Subsystem (BASS): failed functional test on first aircraft 4 times.

Cabin Pressurization: failed functional test on first aircraft 5 times.

Electrical Power Distribution System: failed functional test on first aircraft 2 times.

Pitot-Static System: failed functional test on second aircraft 2 times. On third
aircraft, it failed functional tests 3 times.

Transponder: failed functional test on first aircraft 2 times.

Airspeed Measuring System/Air Data System: failed functional test on first aircraft 3
times. On second aircraft, it failed functional tests 2 times.

Oxygen Mask Drop: failed functional test on third aircraft 2 times.

Wire chafing found with numerous wire bundles on aircraft structure behind
instrument panel; this problem was found on the second aircraft 3 times.

Wire chafing found with engine bleed valve line on insulation. This problem was
found 1 time on the first aircraft.

Wire chafing found with starter generator cables assembly. This problem was found 1
time on the first aircraft.

Wire chafing found with multi-functional display wires on the aircraft structure, both
sides. This problem was found 1 time on the second aircraft.

Loose wiring found with Engine wiring harness to Bleed Air Supply Subsystem
module. This problem was found 1 time on the first aircraft.

Loose wiring found with canon plug and wire harnesses. This problem was found 1
time on the first aircraft.

Loose wiring found with Electrical connectors where the wings attach to the fuselage,
left and right sides. This problem was found 1 time on the second aircraft.
Weight and balance discrepancies due to human calculation errors were found 2 times
on the first aircraft and 1 time on the second aircraft.

Engine grommet was found to be misaligned 1 time on the first aircraft.

Fasteners and rivets were found to be improperly installed 2 times on the second
aircraft and 1 time on the third aircraft.

Source: OIG analysis of FAA data

Table 3. FAA Approvals for Other New Manufacturers of Very Light Jets

Note: Table 3 shows that Eclipse is the only operating manufacturer to receive its
ODAR authorization before the aircraft design was approved by FAA.
Eclipse: Design certificate issued September 30, 2006. Production certificate issued
April 26, 2007. ODAR authority was issued on September 3, 2002.

Cirrus: Design certificate issued October 23, 1998. Production certificate issued
June 12, 2000. ODAR authority issued on September 8, 2006.

Liberty Aircraft: Design certificate issued February 19, 2004. Production
certificate issued April 6, 2006. ODAR authority issued on November 18, 2006.

Adam Aircraft: Design certificate issued May 11, 2005. No production certificate
issued since the company went bankrupt. ODAR authority was issued on May 17,
2002.

Sino Swearingen: Design certificate issued October 27, 2005. No production
certificate issued. No ODAR authority issued. (Note: The small jet from this
manufacturer was not classified as a VLJ because of its weight, but it is often used for
comparison purposes to the Eclipse certification because it was design certified by the
same FAA office during the same time period.)

Source: OIG analysis of FAA data
